HHS/OIG, Audit - "Review of the Management of Unobligated Funds Provided
by Title I of the Ryan White Comprehensive AIDS Resources Emergency Act,"
(A-02-03-02006)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of the Management of Unobligated Funds Provided by Title I of the Ryan White
Comprehensive AIDS Resources Emergency Act," (A-02-03-02006)
February 27, 2007
Complete Text of Report is available in PDF format (320 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to determine whether HRSA complied with departmental policy limiting the carryover of unobligated Title I funds to one budget period.
HRSA did not always comply with departmental policy that, during the audit period, limited the carryover of unobligated grant balances to the next budget period only. Specifically, for grant years 1999–2003, HRSA authorized 46 of the 51 eligible areas to carry over unobligated Title I funds totaling $45,138,339 for periods ranging from 2 to 5 years beyond the original budget period. These funds, which were originally awarded to eligible areas to provide services during a specific budget period, were instead carried over for use in subsequent budget periods.
Departmental policy guidance issued after the audit period now permits the carryover of unobligated grant funds into either of the next two budget periods, but into no other subsequent period.
OIG recommended that HRSA comply with current departmental policy guidance related to the carryover of unobligated grant balances. HRSA concurred with the recommendation and stated that it now follows current departmental policy regarding the approval of carryover requests from Title I grantees.